App. 1
Appendix A
List of Amici3
Professor John R. Allison
McCombs Graduate School of Business
University of Texas at Austin
Professor Jeremy Bock
Tulane University Law School
Professor Bernard Chao
University of Denver Sturm College of Law
Professor Paul R. Gugliuzza
Temple University Beasley School of Law
Professor Justin Hughes
Loyola Law School
Loyola Marymount University
Professor Christa Laser
Cleveland State University School of Law
Professor Mark A. Lemley
Stanford Law School
Professor Yvette Joy Liebesman
St. Louis University School of Law
Professor Brian J. Love
Santa Clara University School of Law
Professor Michael J. Meurer
Boston University School of Law

Amici sign in their personal capacity. Institutions listed for
identification purposes only.
3

App. 2
Professor Tyler T. Ochoa
Santa Clara University School of Law
Professor Joshua D. Sarnoff
DePaul University College of Law

